U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

February 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Big Time Vapes, Inc., et al. v. Food and Drug Administration, No. 20-850

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 18,
2020, and placed on the docket on December 28, 2020. The government’s response is now due,
after one extension, on February 26, 2021. We respectfully request, under Rule 30.4 of the Rules
of this Court, a further extension of time to and including March 29, 2021, within which to file the
government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

20-0850
BIG TIMES VAPES, INC., ET AL.
FDA, ET AL.

JERAD WAYNE NAJVAR
NAJVAR LAW FIRM
2180 NORTH LOOP WEST
SUITE 255
HOUSTON , TX 77018
281-404-4696
JERAD@NAJVARLAW.COM
J. GREGORY TROUTMAN
TROUTMAN LAW OFFICE, PLLC
4205 SPRINGHURST BOULEVARD
SUITE 201
LOUISVILLE, KY 40241
502-412-9179
JGTATTY@YAHOO.COM

